           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     AGED BENEFICIARIES IN NEED
     OF REPRESENTATIVE PAYEES

     April 2010   A-09-09-29002




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      April 5, 2010                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Aged Beneficiaries in Need of Representative Payees (A-09-09-29002)


           OBJECTIVE

           Our objectives were to identify potential vulnerabilities of direct payment to aged
           beneficiaries and determine whether additional safeguards are needed to ensure
           their funds are properly managed.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted the Social
           Security Administration (SSA) the authority to appoint representative payees to receive
           and manage these beneficiaries’ benefit payments. A representative payee may be an
           individual or an organization. SSA selects representative payees for Old-Age, Survivors
           and Disability Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI)
                                                                                          1
           recipients when representative payment would serve the individual’s interests.

           According to SSA policy, adult beneficiaries 2 are presumed capable of managing
           or directing the management of their benefits. However, if SSA employees have
           information that beneficiaries may have a mental or physical impairment that
           prevents them from doing so, they must make a capability determination. When SSA
           determines beneficiaries are incapable, it selects representative payees to manage
           their benefits. 3




           1
             The Social Security Act, §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2); see also
           20 C.F.R. §§ 404, Subpart U and 416, Subpart F.
           2
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
           3
               SSA, Program Operations Manual System (POMS), GN 00502.010 and GN 00502.020.
Page 2 - The Commissioner

A representative payee’s responsibilities include (1) using the benefits received for the
beneficiary’s needs and best interests, (2) notifying SSA of any event or change that
may affect the beneficiary’s eligibility or benefit amount, (3) maintaining accounting
records for the receipt and disbursement of benefits, and (4) submitting an annual
                                                          4
Form SSA-623, Representative Payee Report, to SSA.

According to SSA, over 7 million beneficiaries require representative payees. About
                                                                       5
92 percent of these individuals are children or disabled beneficiaries. Generally,
family members or friends are selected to serve as representative payees. When
family members and friends are not available, SSA selects a qualified organization to
serve as the representative payee.

We initiated this review to examine a concern that SSA may not be aware of aged
beneficiaries who need representative payees. Medical statistics 6 state that up
to 50 percent of individuals over age 85 may suffer from Alzheimer’s disease or
           7
dementia. As of December 1, 2008, we had identified about 5 million beneficiaries
who were over age 85. However, only 231,817 (4.6 percent) had representative
payees. Accordingly, we reviewed a sample of these beneficiaries to evaluate their
capability and need for representative payment (see Appendix C).

RESULTS OF REVIEW

Based on our sample results, we estimate about 1 million beneficiaries over age 85
may have been incapable of managing or directing the management of their benefits.
These beneficiaries generally had individuals or organizations managing their Social
Security benefits without SSA’s knowledge and approval. This occurred, in part,
because (1) SSA did not have a means of identifying aged beneficiaries who became
incapable after their initial entitlement to benefits and (2) individuals or organizations
who managed the benefits were not always aware of SSA’s Representative Payment
Program. Based on a random sample of 275 beneficiaries, we estimate




4
    20 C.F.R. §§ 404.2035 and 416.635.
5
    Annual Statistical Supplement to the Social Security Bulletin, March 2009, Tables 5.L.1 and 7.E.4.
6
  The Cleveland Clinic, American Psychological Association, U.S. Census Bureau, and American Medical
Association.
7
   Alzheimer’s disease is a progressive and fatal brain disease that destroys brain cells and causes
problems with memory, thinking, and behavior severe enough to affect work, lifelong hobbies, or social
life. Dementia is the general loss of memory and other intellectual abilities serious enough to interfere
with daily life. Alzheimer’s disease is a form of dementia.
Page 3 - The Commissioner

•    Approximately 1,061,220 beneficiaries received about $1 billion in monthly benefits
     but were incapable of managing or directing the management of their benefits, and

•    Over a 1-year period, 8 SSA disbursed about $12.5 billion in benefits to beneficiaries
     who were incapable of managing their benefits (see Appendix C).

In addition, we found that 34 beneficiaries, receiving $40,162 in monthly benefits,
refused to participate in our review and may have been at-risk.

As a result, SSA cannot be assured the individuals or organizations that were managing
beneficiaries’ funds were suitable and using the benefits received for the beneficiaries’
needs and best interests. Finally, with the retirement of the “baby boom” generation 9
and longer life expectancies, the population of aged beneficiaries is projected to
increase significantly. Therefore, the number of beneficiaries who are incapable of
managing their benefits and in need of representative payees will increase in the
coming years.

PAYMENTS TO BENEFICIARIES OVER AGE 85

Of the 275 beneficiaries in our sample, we found that 61 may have been incapable of
managing or directing the management of their benefits. In addition, 34 beneficiaries
refused to participate in our review and may have been at-risk, but we were unable to
determine whether they were capable of managing or directing the management of their
benefits. One SSI recipient could not be located. SSA subsequently suspended
payments but did not verify when the recipient left the United States, whether the
recipient was still alive, and if any overpayments were due. The remaining
179 beneficiaries appeared capable of managing or directing the management of their
benefits at the time of our review. Our sample results are summarized below.




8
    Annual benefits represent the beneficiaries’ most recent monthly payments multiplied by 12 months.
9
  Generally, “baby boomers” are individuals born between 1946 and 1964. The oldest members of the
“baby boomer” generation will attain age 85 in 2031.
Page 4 - The Commissioner



                Summary of Interviews with Aged Beneficiaries
                           Based on Random Sample of 275 Beneficiaries

      34 Refused                                                                179 Capable
     to Participate                                                             of Managing
        (12.4%)                                                                Their Benefits
                                                                                   (65.0%)




                61 Incapable
                of Managing                                           1 Could Not Be
               Their Benefits                                            Located
                   (22.2%)                                                (0.4%)




Beneficiaries Incapable of Managing Their Benefits

All legally competent, adult beneficiaries are presumed capable of managing or
directing someone else to manage their benefits unless there are indicators or
evidence to the contrary. 10 If SSA obtains information that beneficiaries may have a
mental or physical impairment that prevents them from managing their benefits, it must
perform a capability determination to evaluate their ability and, if necessary, assign a
                       11
representative payee.

We interviewed 240 of the beneficiaries in our sample (including relatives, friends,
social workers, or community groups) to determine whether they were capable of
managing their benefit payments. Our review disclosed that 61 beneficiaries, receiving
$59,757 in monthly benefits, were incapable of managing or directing the management
of their benefits. Projecting these results to our population, we estimate about 1 million
beneficiaries were directly paid $1 billion in monthly benefits but were incapable of
managing their benefits (see Appendix C).




10
     SSA, POMS, GN 00502.010.
11
     SSA, POMS, GN 00502.020.
Page 5 - The Commissioner

For the 61 beneficiaries,            Party Managing Benefits    Number of Beneficiaries
we identified the
                                             Spouse                         5
individuals, organizations,
and institutions that                        Children                     40
managed their funds                       Other Relatives                   9
without SSA’s knowledge
                                             Agency                         1
and approval by assisting
with day-to-day living                      Institution                     4
and handling of financial                     Friend                        2
matters, as depicted in
                                                 Total                    61
the chart.

For example, an 86-year-old beneficiary resided with a family member and received
$1,820 in monthly benefits. During our interview, the beneficiary was unable to respond
to any of our questions. According to the family member, the beneficiary was in the late
stages of Alzheimer’s disease and required a 24-hour caregiver. The family member
had managed the beneficiary’s finances for the past 6 years and was a signatory on all
his accounts. The family member was interested in receiving additional help from SSA.
Had we not contacted the beneficiary, SSA would have been unaware that he was
unable to manage or direct the management of his benefits. We referred this case to
SSA for appropriate action.

In selecting a representative payee, SSA evaluates an applicant’s qualifications
and suitability to serve the beneficiary’s interests. Applicants are required to submit
a Form SSA-11-BK, Request to Be Selected as Payee. SSA generally requires
face-to-face interviews with applicants to evaluate their suitability and explain
                                                             12
their duties and responsibilities as representative payees. SSA also reviews the
applicant’s Social Security number; verifies identity and income; reviews criminal
history; and evaluates any relationship to the beneficiary, custody arrangements, and
                                                                                     13
past performance if they currently or previously served as a representative payee.

Based on the results of our review, SSA may be unaware of about 1 million "de facto"
payees who manage the benefits for aged beneficiaries. Moreover, SSA had not
evaluated the qualifications and suitability of these individuals or organizations to
determine whether they would serve the beneficiaries’ best interests. To reduce the
risk of benefit misuse, we encourage SSA to take a proactive role to identify aged
beneficiaries who are unable to manage their benefits and may have individuals or
organizations who are managing their benefits without SSA’s knowledge and approval.




12
     SSA, POMS, GN 00502.107, GN 00502.113, and GN 00502.130.
13
     SSA, POMS, GN 00502.117 and GN 00502.132.
Page 6 - The Commissioner

SSA performs capability determinations only when it obtains information that
beneficiaries may have a mental or physical impairment that prevents them from
managing their benefits. 14 SSA’s procedures do not require that the Agency identify
aged beneficiaries in need of representative payees. Instead, SSA generally relies on
beneficiaries (or family members and friends) to request assistance from the Agency.
According to SSA, about 91.9 percent of the individuals with representative payees
                                              15
are either children or disabled beneficiaries. Therefore, we believe SSA should
take additional actions to identify aged adult beneficiaries who may be incapable of
managing or directing the management of their benefits.

                              During our interviews, we obtained general information about
     Characteristics
                              the beneficiaries’ living arrangements, money management,
     of Beneficiaries
                              and program awareness. Accordingly, for the beneficiaries who
       over Age 85
                              responded to our questions, we found the following.

                                                                         Capable            Incapable
                           Characteristic
                                                                       Beneficiaries       Beneficiaries
 Living Arrangements
  Lived Alone                                                             51.0%               41.5%
  Had Guardian, Conservator, or Power of Attorney                         49.7%               80.0%

 Money Management
  Another Party Paid All Bills                                            17.3%               85.3%
  Relied on Friends or Relatives to Help Manage Money                     24.6%               87.5%

 Program Awareness
  Interested in Receiving Help with Managing Benefits                      3.9%               33.3%
  Unaware of SSA’s Representative Payment Program                         82.9%               94.4%


As noted above, we found both capable and incapable beneficiaries had guardians,
conservators, or powers of attorney. In addition, both capable and incapable
beneficiaries relied on friends, relatives, or other parties to pay all their bills or help
manage their money. While most of these beneficiaries were incapable of managing
their benefits, we concluded that the capable beneficiaries were able to direct the
management of their benefits. Finally, we found neither capable nor incapable
beneficiaries were generally aware of SSA’s Representative Payment Program.




14
     SSA, POMS, GN 00502.020.
15
     Annual Statistical Supplement to the Social Security Bulletin, March 2009, Tables 5.L.1 and 7.E.4.
Page 7 - The Commissioner

Beneficiaries Refused to Participate and May Be At-Risk

We found that 34 beneficiaries, receiving $40,162 in monthly benefits, refused to
participate in our review and may have been at-risk. During our review, we contacted
the beneficiaries by mail and telephone to arrange for an interview. We also requested
assistance from SSA’s field offices to contact or interview the beneficiaries as needed.
However, we were unable to verify the identities of 34 beneficiaries and determine
whether they had moved, were still alive, were capable of managing or directing the
management of their benefits, or had an individual or organization who managed their
benefits.

For example, we attempted to contact a beneficiary who resided at a shared living
community and received $497 in monthly benefits. The individual who handled the
beneficiary’s Social Security benefits refused our request for an interview. The
individual stated she dealt with SSA on all matters for the beneficiary but was not a
representative payee. However, according to SSA’s Representative Payee System,
the shared living community had served as a representative payee for 13 beneficiaries
until May 2007. Since we were unable to talk with the beneficiary, we could not verify
whether she was alive or capable of managing her benefits.

We referred these beneficiaries to SSA for appropriate action. As of March 2010, SSA
had reviewed 15 of the 34 beneficiaries. Of these, SSA stated it had selected a
representative payee for 1 beneficiary and determined that 14 beneficiaries were
capable of managing their benefits.

SSI Recipient Could Not Be Located

We could not locate one SSI recipient, receiving $449 in monthly payments, during
our review. 16 We referred this case to SSA for appropriate action. According to
SSA’s records, the recipient became eligible for SSI payments in May 2001. Although
SSA was unable to contact the recipient, it contacted a family member and learned
the recipient had moved and subsequently left the country. SSA also learned the
recipient’s checks, totaling $20,752, had not been cashed for the past 4 years. As
a result, SSA suspended payments to the recipient and requested the return of the
uncashed checks. However, SSA did not verify when the recipient left the United
States, whether the recipient was still alive, or if any overpayments occurred.




16
   In May 2009, we referred 17 beneficiaries whose whereabouts were unknown to SSA for appropriate
action. SSA subsequently located 16 of these beneficiaries. However, as of August 2009, one SSI
recipient could not be located.
Page 8 - The Commissioner

SSI recipients are required to report to SSA any changes in address or absences from
                                                      17
the United States for 30 or more consecutive days. These changes may affect the
recipient’s SSI eligibility or payment amount. If a recipient’s whereabouts are unknown,
SSA must attempt to locate the recipient and document its actions. If these efforts are
unsuccessful, SSA sends a notice to the recipient’s mailing address and suspends
benefit payments. 18

IDENTIFICATION OF INCAPABLE BENEFICIARIES

As part of our review, we identified the following options for SSA’s consideration to
better identify aged beneficiaries in need of representative payees.

   SSA Data – Use current SSA data to identify aged beneficiaries who may need
representative payees. For example, in a recent audit, 19 we identified Social Security
payments that were sent directly to nursing homes for beneficiaries who required a
representative payee. SSA could also consider a match of representative payee
address information to the addresses where beneficiaries’ payments are sent.

   Mailings – Send periodic mailings or an enclosure to the annual Cost-of-Living
Adjustment notices to aged beneficiaries and their families to inform them of SSA’s
Representative Payment Program.

    Outreach – Perform educational outreach with the medical community, nursing
homes, and retirement communities to inform them of SSA’s Representative Payment
Program. For example, in 2009, SSA performed educational outreach for its
Representative Payment Program with caregivers in Baton Rouge, Louisiana. A public
affairs specialist provided a number of 1-hour presentations, A Caregiver's Guide to
Accessing Social Security Services, to a nonprofit organization that provides family
support and education for Alzheimer’s patients, their families, and caregivers.

    Centenarian Projects – Conduct Centenarian or similar projects for beneficiaries
over certain ages. Through face-to-face contacts, SSA could verify whether
beneficiaries are alive and if they may need representative payees. For example, in
2008, SSA’s San Francisco Region conducted a Centenarian Project in Los Angeles,
California. The Project required face-to-face contacts with all beneficiaries in current
or suspended pay status who were age 103 or older. The Project disclosed that
17 percent of the contacts required a representative payee or change in payee. The
Project also identified two cases where fraudulent actions had resulted in $150,000 in
overpayments. As a result, the San Francisco Region recently expanded the Project
Region-wide for all beneficiaries over age 100.


17
     20 C.F.R. § 416.708.
18
     SSA, POMS, SI 02301.240 and GN 02602.320.
19
     SSA, OIG, Beneficiary and Recipient Use of “In Care of” Addresses (A-06-08-18015), August 2008.
Page 9 - The Commissioner

We recognize these options may present challenges or obstacles for the Agency. We
also recognize that budget or workload constraints may affect the potential benefits
of any initiative. Nevertheless, we encourage SSA to evaluate the feasibility of these
options or other possible options to better identify aged beneficiaries in need of
representative payees.

PROJECTED GROWTH IN THE NUMBER OF AGED BENEFICIARIES

According to the U.S. Census Bureau, the population of individuals age 85 and older
                                   st
is projected to increase in the 21 century, growing slowly in the first few decades and
more rapidly after 2030, when the “baby boomers” enter this age group. In 2000, about
4.2 million people were age 85 and older, and that number is projected to increase
to about 10 million by 2030 and 21 million by 2050. 20 As a result, the number of
beneficiaries will also increase, along with the number of beneficiaries who may be
incapable of managing their benefits and in need of representative payees.

In addition, a recent study disclosed that Alzheimer's disease afflicts about 2.7 million
Americans who are age 85 and older, and that number is projected to increase to about
3.5 million in the next 22 years. The study also disclosed about 1.3 million residents
in nursing homes suffer from moderate to severe cognitive impairments. Because
Alzheimer's disease and dementia usually progress slowly, the study reported about
32 percent of family members and unpaid caregivers provide assistance for over
                                                               21
5 years while 39 percent provide assistance from 1 to 4 years.

Finally, given the projected growth of the aged beneficiary population, SSA will need
to devote significantly more resources to its Representative Payment Program. As
such, SSA may want to reevaluate the intent of the Program with respect to the
management of benefits within a family, such as one spouse assisting another spouse
who is incapable. If SSA were to seek a legislative change to only select and monitor
representative payees who are not immediate family members living in the same
household, the number of representative payees who need to be assessed and
monitored would significantly decrease. This would allow SSA to devote its limited
resources to monitoring organizational and non-family individual representative payees.




20
  U.S. Census Bureau, Current Population Reports, Special Studies, 65+ in the United States: 2005,
P23-209, December 2005.
21
     2009 Alzheimer’s Disease Facts and Figures, Alzheimer’s Association.
Page 10 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
We estimate that approximately 1 million aged beneficiaries who received about
$1 billion in monthly benefits may have been incapable of managing or directing the
management of their benefits. Over a 1-year period, we estimate that SSA disbursed
about $12.5 billion in benefits to beneficiaries who may have been incapable of
managing their benefits (see Appendix C). In addition, we found that 34 beneficiaries,
receiving $40,162 in monthly benefits, refused to participate in our review and may
have been at-risk.

We also determined that SSA cannot be assured the individuals or organizations who
are managing these beneficiaries’ funds are suitable and using the benefits received
for the beneficiaries’ needs and best interests. This occurred, in part, because SSA
did not identify aged beneficiaries who became incapable after their initial entitlement to
benefits. In addition, individuals or organizations who managed the benefits were not
always aware of SSA’s Representative Payment Program. Finally, with the retirement
of the “baby boom” generation and longer life expectancies, the number of aged
beneficiaries who will be incapable of managing their benefits and in need of
representative payees will increase in the coming years.

We recommend SSA:

1. Take appropriate action (for example, perform a capability determination and select
   a representative payee, if needed) for the 61 incapable beneficiaries identified by
   our audit.

2. Contact the 34 beneficiaries who refused to participate in our review and determine
   whether they are capable of managing their benefits.

3. Follow up on the one SSI recipient who could not be located to verify when the
   recipient left the United States, whether the recipient is still alive, and if any
   overpayments were made.

4. Establish additional controls to better identify aged beneficiaries in need of
   representative payees.

5. Evaluate the need for additional representative payee policy for selecting and
   monitoring family members who manage incapable beneficiaries’ funds.
Page 11 - The Commissioner

AGENCY COMMENTS
SSA agreed with four of our five recommendations. SSA did not agree with
Recommendation 4 because it would require a significant increase in the number of
capability determinations, and it could not justify the investment of resources. SSA
also stated that targeting aged beneficiaries for capability reviews could be perceived
as discriminatory and interfering with their rights. Finally, SSA stated that we may have
overestimated the number of incapable beneficiaries. After our audit, SSA reported
that it contacted 32 of the beneficiaries and found 4 (12 percent) were capable of
managing their benefits.

The Agency’s comments are included in Appendix D.

OIG RESPONSE

Although SSA disagreed with Recommendation 4, it plans to contact all beneficiaries
aged 103 and older beginning in May 2010. During this review, SSA employees will
conduct face-to-face interviews with approximately 14,000 beneficiaries. As such, SSA
will identify beneficiaries who need representative payees. In addition, SSA’s review of
some of our sample cases of beneficiaries over age 85 has already shown that a need
for representative payment exists. Since SSA already plans to review beneficiaries
aged 103 and older, it also needs to develop cost-effective ways to identify the
remaining population of incapable beneficiaries. In our report, we noted several
potential options to address this concern. These included using existing SSA data to
identify payments that are sent directly to nursing homes or known organizational
representative payees. Finally, our recommendation was not designed to target aged
beneficiaries over age 85 but to ensure payments to these beneficiaries—who will
increase to about 21 million by 2050—are used for their intended purpose.

We believe our estimate of the number of aged beneficiaries who may be incapable of
managing their benefits is valid. We found that 61 (22 percent) of the 275 beneficiaries
in our sample were incapable. Our estimates were based on the beneficiaries’
conditions at the time of our review. SSA subsequently found that 4 beneficiaries
(12 percent of those SSA has reviewed to date) were capable because their conditions
had improved. However, it is unrealistic to expect no changes in the beneficiaries’
conditions over a period of time. If the same 12-percent change were applied to the
179 beneficiaries who were capable at the time of our review, an additional
21 beneficiaries may need representative payees because their ability to manage
benefits has deteriorated since we interviewed them.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                    Appendix B

Scope and Methodology
Using the Social Security Administration's (SSA) Master Beneficiary (MBR)
and Supplemental Security Records (SSR), we obtained a data extract of
5,018,933 beneficiaries who were age 85 or older as of December 1, 2008. Of
these beneficiaries, 4,747,324 received Old-Age, Survivors and Disability Insurance
(OASDI) benefits, 138,551 received Supplemental Security Income (SSI) payments,
and 133,058 received both OASDI and SSI payments concurrently. From this file,
we identified 4,787,116 beneficiaries who were receiving benefits and did not have
a representative payee.

For our review, we limited our population to 2,353,819 beneficiaries who resided
(1) within 200 miles of an Office of Audit location 1 or (2) in Los Angeles County or the
State of Florida. We selected a random sample of 275 beneficiaries for review.

To accomplish our objective, we

•   reviewed applicable Federal laws and regulations, SSA’s Program Operations
    Manual System, and other policy memorandums;

•   obtained queries from SSA’s MBR, SSR, and Numident;

•   reviewed medical studies related to Alzheimer’s disease and dementia from the
    Cleveland Clinic, American Psychological Association, U.S. Census Bureau, and
    American Medical Association;

•   interviewed the beneficiaries in our sample to determine their ability to manage or
    direct the management of their benefits;

•   reviewed LexisNexis and public databases (such as www.zabasearch.com
    and www.whitepages.com) to obtain current address information for selected
    beneficiaries; and

•   coordinated with SSA’s field offices to contact or interview the beneficiaries as
    necessary.




1
   The Office of Audit is headquartered in Baltimore, Maryland, and maintains 10 field offices nationwide
in Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas City, Missouri;
and Richmond, California.


                                                    B-1
Of the 275 beneficiaries in our sample, we referred 17 who could not be located
to SSA for appropriate action. In addition, SSA performed capability determinations
for 20 beneficiaries and concluded that 15 were capable of managing their benefits,
and 5 were incapable and required a representative payee. During our review,
16 beneficiaries died, and 1 was assigned a representative payee before our interviews
were conducted. We randomly selected additional beneficiaries to replace these
individuals in our sample.

We determined the computer-processed data from the MBR and SSR were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and
achieve our audit objective.

We performed audit work in Baltimore, Maryland; Boston, Massachusetts; New York,
New York; Philadelphia, Pennsylvania; Atlanta, Georgia; Birmingham, Alabama;
Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas City, Missouri; and
Richmond, California, between December 2008 and July 2009. The entities reviewed
were SSA’s field offices under the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          B-2
                                                                                    Appendix C

Sampling Methodology and Results
Based on data extracts from the Social Security Administration's (SSA) Master
Beneficiary and Supplemental Security Records, we identified a population of
4,787,116 beneficiaries who were over age 85, receiving benefits, and did not have a
representative payee as of December 1, 2008. Of this amount, 2,353,819 beneficiaries
resided (1) within 200 miles of an Office of Audit location 1 or (2) in Los Angeles County
or the State of Florida.

We randomly selected 275 beneficiaries to identify potential vulnerabilities of direct
payment to aged beneficiaries and determine whether additional safeguards were
needed to ensure their funds are properly managed. Specifically, we evaluated their
capability and need for representative payment.

We found that 61 beneficiaries, receiving $59,757 in monthly benefits, were incapable
of managing or directing the management of their benefits. Projecting these results to
our population, we estimate that 522,120 beneficiaries received about $511 million in
monthly benefits but were incapable of managing their benefits.

For purposes of this audit, we considered the characteristics and findings observed for
the beneficiaries in our sample to be representative of the beneficiaries over age 85 in
the United States. Therefore, we estimate that 1,061,220 beneficiaries in the United
States received about $1 billion in monthly benefits but were incapable of managing
their benefits.

Over a 1-year period, 2 we estimate that SSA disbursed about $12.5 billion in benefits to
beneficiaries who were incapable of managing their benefits. The following tables
provide the details of our sample results, statistical projections, and estimates.

Table 1 – Population and Sample Size

                  Description                                    Number of Beneficiaries
    Population Size                                                   2,353,819
    Sample Size                                                              275



1
   The Office of Audit is headquartered in Baltimore, Maryland, and maintains 10 field offices nationwide
in Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas City, Missouri;
and Richmond, California.
2
    Annual benefits represent the beneficiaries’ most recent monthly payments multiplied by 12 months.


                                                    C-1
Table 2 – Beneficiaries Incapable of Managing Their Benefits

                                                          Number of                   Monthly
                 Description                             Beneficiaries                Benefits
    Sample Results                                               61                       $59,757
    Point Estimate                                          522,120                 $511,476,566
    Projection - Lower Limit                                426,470                 $407,633,682
    Projection - Upper Limit                                628,462                 $615,319,450
    Monthly Estimate for Population 3                     1,061,220                $1,039,586,516
    Annual Estimate for Population                                                $12,475,038,192
    Note: All statistical projections are at the 90-percent confidence level.




3
   Our audit population of 2,353,819 beneficiaries who resided within 200 miles of an Office of Audit
location or in Los Angeles County or the State of Florida represents about 49.2 percent of the total
population of 4,787,116 beneficiaries in the United States. As a result, the estimate for the population
is based on the point estimate divided by 0.492.



                                                       C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      March 18, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Aged Beneficiaries in Need of
           Representative Payees” (A-09-09-29002)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We have a
           fundamental concern with this type of review. We do not believe it is an effective use of OIG or
           agency resources to conduct work and make recommendations that are beyond the scope or
           control of the agency.

           Attached is our response to the report findings and specific recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“AGED BENEFICIARIES IN NEED OF REPRESENTATIVE PAYEES” (A-09-09-29002)

We reviewed the audit report on aged beneficiaries in need of representative payees and believe
the numbers of incapable beneficiaries and payments “at risk” are over-estimated OIG selected
a sample of 275 from a population of 4.78 million Social Security and Supplemental Security
Income (SSI) beneficiaries over the age of 85 who did not have payees. OIG found 61
beneficiaries whom they believed were incapable, and from that finding, concluded that over 1
million aged beneficiaries were likely to be in need of a payee. We have not completed our
review of these 61 beneficiaries, but our initial findings indicate that the audit report
overestimates the funds at risk.

In addition, you noted that many elderly beneficiaries are not familiar with the representative
payee program and suggest that we should reach out to them to inform them of the program. We
have a number of ways in which we inform the public about our representative payee
program. First, at our field offices, we have a pamphlet, "When a Representative Payee Manages
Your Money," which is written specifically to educate beneficiaries about our payee program. It
tells them what a payee does, what to do if they are unhappy with their payee, etc. Second, there
is information available to the public on our website, http://www.ssa.gov/payee, which not only
contains the pamphlet mentioned above, but also has a wealth of information about the
representative payee program as well as links to guides for organizational payees and to online
accounting.

Recommendation 1

Take appropriate action (for example, perform a capability determination and select a
representative payee, if needed) for the 61 incapable beneficiaries identified by the audit.

Comment

We agree. We reviewed 32 of the 61 cases and will review the remaining 29 cases by
April 2010. We selected representative payees for 18 beneficiaries whom we found to be
incapable. Four were capable, and eight had died. We could not find two beneficiaries and
suspended their benefits. Based on the cases we have reviewed so far, 12 percent of the
beneficiaries were capable of managing or of directing the management of their benefits.
Therefore, the OIG estimate of $59,707 in monthly benefits paid to the 61 beneficiaries,
categorized by OIG as “Funds Put to Better Use,” is overstated by 12 percent or more. When
this estimate is projected out to the entire potential population, OIG estimates $1,039,526,758 as
“Funds Put to Better Use.” Given that at least 12 percent of the beneficiaries in OIG’s review
were capable of managing their benefits, this estimate could be off by $124 million or more.

Recommendation 2

Contact the 34 beneficiaries who refused to participate in the review and determine whether they
are capable of managing their benefits.



                                                D-2
Comment

We agree. We reviewed 15 of the 34 cases and selected a representative payee in only one case.
We will review the remaining 19 cases by April 2010. So far, we determined that 14
beneficiaries, 93.3 percent of the cases reviewed, were capable of managing their benefits.

Recommendation 3

Follow up on the one SSI recipient who could not be located to verify when the recipient left the
United States, whether the recipient is still alive, and if any overpayments were made.

Comment

We agree. We recently learned that the recipient left the country about three years ago. Prior to
obtaining that information, we had already suspended her payments and recovered some of the
payments. We are working to recover the rest of the overpayment.

Recommendation 4

Establish additional controls to better identify aged beneficiaries in need of representative
payees.

Comment

We disagree. This would require a significant increase in the number of capability investigations
undertaken in the field, and we cannot justify this investment of resources. All legally competent
beneficiaries are presumed capable, unless there is evidence to the contrary. Under the Act, we
are the sole arbiter of their capability for managing benefits. When capability is in doubt, we
review legal, medical, and lay evidence to make a determination. Beneficiaries who might
otherwise be found incapable may be found capable if they have the support of friends, relatives,
or community organizations. We are concerned that the findings in the report may reflect a
different standard than we use in capability determinations. Specifically, it may have
mischaracterized some of the relationships discovered between beneficiaries and concerned third
parties as “de facto” payees. We do not make capability determinations based on age or type of
illness. Targeting aged beneficiaries for capability reviews could be perceived as discriminatory
and interfering with their rights.

Recommendation 5

Evaluate the need for additional representative payee policy for selecting and monitoring family
members who manage incapable beneficiaries’ funds.




                                                D-3
Comment

We already have conducted a review of our policy on family members who serve as
representative payee. We concluded that parental and spousal payees with custody of the
beneficiary are extremely low risk for the misuse of benefits and should not be subjected to our
usual annual reporting procedures. As a result, we submitted a legislative proposal to this effect
to Congress on December 2, 2009.




[SSA also provided technical comments which have been addressed, where
appropriate, in the report.]




                                                D-4
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division
   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Wilfred P.K. Wong, Senior Auditor

   Atlanta Audit Division
   Boston Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Evaluation Division
   Financial Audit Division
   Kansas City Audit Division
   New York Audit Division
   Philadelphia Audit Division

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29002.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
